19
PROOF OF SERVICE
I, William Hugh Wilson,do swear or declare that on this date December
7th,2020,as required by Supreme Court Rule 29

I have served the enclosed’

MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS and PETITION FOR A WRIT OF
CERTIRARI on the Solicitor general of the United States,at Room 5614,
•

Department of Justice,950 Pennsylvania Ave.N.W,Washington,D.C 20530.
via United States First-.Class postage service. By depositing such copies
in the prison mail box of Federal Correction Institution,Oakdale Louisiana
on December 7th,2020,according to the Supreme Court"mail-box ruld' of
Houston v. Lack .and under penalty of perjury 28 U.S.C 1746.

Dated:December 7th,2020
Submitted,
William Hugh Wilson
REG.NO.21604-040
FCI OAKDALE II
P.O.BOX 5010
OAKDALE,LA 71463
(Pro se)

CERTIFICATE OF COMPLIANCE
As required by the Supreme Court, I cerify that ..Petition for Writ
of Certiorari is in compliance with the Supreme Court's word limit Rule
33-1(d). This declaration is made under penalty of perjury 28 USC 1746.

Dated: December 7th,2020
Submitted,'
William Hugh Wilson

:

